OFF ICE OF THE ATTORNEY GE N ERA L
CON NECTICUT

Tel: (860) 808-5270
Fax: (860) 772-1709

September 7, 2021
Scott S. Harris
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
RE:

Grand River Enterprises Six Nations, Ltd. v. Mark Boughton - No. 21-279

Dear Mr. Harris:
I represent the Defendant-Respondent, Connecticut Commissioner of Revenue
Services, Mark Boughton , in the above-captioned case. Pursuant to Rule 30.4 of the
Rules of the United States Supreme Court, Respondent hereby requests that the time
within which to oppose the petition for certiorari be extended sixty (60) days, up to and
including November 23, 2021 . The petition for certiorari in the above-captioned case
was filed on August 23, 2021 and was docketed on August 25, 2021. Respondent's
brief in opposition is now due, unless extended, on September 24, 2021. Counsel for
the Petitioner, Kelli J. Keegan, does not object to this request for a sixty (60) day
extension .
This request is necessitated by the fact that counsel for Respondent is scheduled
to be away for several days during September. Additional time is also required because
counsel and support staff are currently coordinating their work remotely due to the
COVI D-19 pandemic. The requested extension will allow adequate time for the brief to
be reviewed within our office and to resolve any unexpected difficulties that may arise in
the preparation, revision, and submission of the brief.
Respectfully submitted,

)¥)- 05

Joseph J. Chambers
Assistant Attorney General
Counsel of Record
Email : joseph.chambers@ct.gov

cc: Kelli J. Keegan , Esquire
165 Capitol Avenue
Hartford, Connecticut 06106
A 11 Affi1111ative Actio11 / E q11al Opp o,111111!)1E 111plqJ er
1

